HHS/OIG, Audit,"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of First Coast Services Options, Inc.,"(A-05-03-00036)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of First Coast Services Options, Inc.," (A-05-03-00036)
April 9, 2003
Complete
Text of Report is available in PDF format (396 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare
Skilled Nursing Facility (SNF) payments contained in our database of payments
made under the administrative responsibility of First Coast Services Options,
Inc. (First Coast).  Our review of the database estimated that $6.8 million
of ineligible SNF payments were made under the administrative responsibility
of First Coast during calendar years 1997 through 2001.  The overpayments
occurred because of the absence of an automated cross-check, within the Centers
for Medicare and Medicaid Services Common Working File and the Fiscal Intermediarys
claims processing systems, verifying that a three consecutive day inpatient
hospital stay occurred prior to SNF admission.  First Coast agreed with
the findings and recommendations presented in the report and will investigate
the SNF claims the OIG has determined to be unallowable and initiate recovery
of the unallowable amount.